U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                             Executive Summary

                                Review of FBI
                            Interactions with the
                            Council on American-
                              Islamic Relations


                                September 2013




                                  1-20 13-007R

                  REDACTED - FOR PUBLIC RELEASE
                                  EXECUTIVE SUMMARY*


       In March 2012, after receiving a congressional request, the Office of the
Inspector General (OIG) initiated a review to examine the clarity of the Federal
Bureau of Investigation's (FBI) policy and guidance for its non-investigative
interactions with the Council on American-Islamic Relations (CAIR) and FBI
field office compliance with the policy and guidance. In evaluating field office
compliance, we focused on five specific interactions between the FBI and CAIR
that took place from 2010 through 2012 at three FBI field offices: New Haven,
Connecticut; Chicago, Illinois; and Philadelphia, Pennsylvania. We found
significant issues with the way the FBI implemented and managed its CAIR
policy and guidance. The OIG is issuing a full report today on FBI interactions
with CAIR to Congress and the Department of Justice that is classified at the
Secret level. This unclassified summary of the report summarizes the findings,
conclusions, and recommendations of the report.

Background
       In 2008, the FBI developed a policy on its interactions with CAIR based
in part on evidence presented during the 2007 trial of the Holy Land
Foundation for Relief and Development.! The evidence at trial linked CAIR
leaders to Hamas, a specially designated terrorist organization, and CAIR was
named as an unindicted co-conspirator in the case. The policy was intended to
significantly restrict the FBI's non-investigative interactions with CAIR and to
prevent CAIR from publicly exploiting such contacts with the FBI.

       The FBI's                                    communicated the policy to
FBI field offices through a series of electronic communications (EC) dur~ 4-
month period from August               December 2008. During this time,-
sent three ECs and the FBI's                           sent two other ECs to FBI
field offices providing background, guidance, and policy language on when,
how, and why future specific non-investigative interactions with CAIR would be
restricted. 2 The ECs mandated coordination with the
for all non-investigative interactions with CAIR and                   offices to
specific points of contact at                                      for guidance

         * The FBI identified within the full version of this report classified and other information
that if released publicly could compromise national security interests and the FBI's operations.
To create this unclassified public Executive Summary, the Office of the Inspector General
redacted (blacked out) portions of the Executive Summary.

       1   United Statesv. Holy Land Foundation et al. (Cr. No. 3:04-240-P, N.D. Tex).

         2 The strategy addressed only non-investigative community outreach interactions and
was not intended to affect field offices' interactions with CAIR representatives with regard to
civil rights complaints or criminal investigations.

U.S. Department of Justice                                                                        1
Office of the Inspector General
Evaluation and Inspections Division
regard~he implementation of the policy. Additionally, in late November
2008, -held a mandatory meeting for all Special Agents-in-Charge (SAC)
and Assistant Directors-in-Charge of FBI field offices to ensure compliance with
the policy.
       The ECs containing the policy acknowledged that it represented a
significant deviation from past FBI policy and that it affected longstanding
relationships in the field. When we asked the former FBI Assistant Director for
. ., who was the Deputy Assistant Director f o r - at the time, why the FBI
issued multiple ECs over a 4-month period regarding the policy, he said that
some of the field offices were reluctant to go along with the policy initially. 3 For
example, on October 27, 2008, the Los Angeles SAC sent an e-mail to his staff
stating that the field office's "position is that we will decide how our
relationship is operated and maintained with CAIR barring some additional
instruction from FBI Headquarters." The SAC further stated: "Please instruct
your folks at this time that        are not to abide by the [October 24, 2008, EC
from the                               but that their direction in regards to CAIR
will                                  front office." We learned from interviews
with the                                        that several other SACs also were
reluctant to follow the policy. The former Assistant Director o f - also said
that field office            believed the strategy was being run by the
                           rather than -      and "they did not like answering to
the                             " The former Assistant Director o f - further
stated that the ECs were meant to demonstrate that this was a national issue
rather than an issue that affected only a
       Based on our review of five incidents in three field offices, we found that
- d i d not manage or provide the oversight needed to ensure proper
implementation and compliance with its policy. Instead, a different
headquarters entity, the Office of Public Affairs (OPA), provided policy
interpretation and advice to FBI field offices on potential interactions with local
CAIR chapters, without consulting • .4 We found that OPA's guidance was
not always in line with, or supported by, the binding language contained in the
policy. We also found instances in which FBI field offices did not communicate
with the points of contact identified in the policy. And we found t h a t - and
OPA still appear to have coordination issues before providing guidance to FBI
field offices.


       3He served as Assistant Director of the FBI's                         from January
to December 2010.
        4 OPA issued "Public Affairs Guidance" in Apri12009, July 2009, January 2010, March

2010, and March 2011 to FBI field offices to provide questions and answers (Q & A's) and
talking points for media inquiries and interviews on Muslim outreach that each contained a
portion on FBI-CAIR relations.

U.S. Department of Justice                                                              2
Office of the Inspector General
Evaluation and Inspections Division
Five Field Office Incidents
       Chicago Field Office- On July 27, 2010, the SAC of the Chicago Field
Office gave a presentation at the request of the American Islamic College. The
SAC was not aware until 30 minutes prior to the event that a local CAIR official
was scheduled to make the introductory remarks. Shortly after the event,
CAIR-Chicago posted a description of the event on its website with a
photograph of the SAC talking to the class. While this appearance with a CAIR
official did not adhere to the policy language or its intent, the OIG recognizes
that the SAC was notified at the last minute and made a judgment call. Had
the SAC learned earlier the identity of the person who was scheduled to
introduce        we believe that the policy would have required coordination with
the                           before proceeding with the event.
       New Haven Field Office- On October 29, 2010, the FBI New Haven Field
Office co-coordinated a diversity training workshop with a local Muslim
organization. Two of the six trainers selected for this "cultural sensitivity"
training were local CAIR officials. The New Haven Field Office sought guidance
from OPA,                                          about how it could
in the event and still comply with policy. The
the New Haven Field Office that the training would be against policy. However,
OPA provided different guidance to the New Haven Field Office that training
could occur as long as it was conducted offsite, and New Haven did not abide
by the opinion of the                          and instead followed the OPA
guidance. The result was an FBI interaction with CAIR that was inconsistent
with the FBI's policy.
       Chicago Field Office- On December 2, 2010, the Chicago Field Office
hosted a quarterly Department of Homeland Security {DHS) Community
Engagement Roundtable at its field office that many Chicago area government
and community officials attended. DHS invited a local CAIR official to attend
the meeting at the Chicago FBI Field Office, although the CAIR official
ultimately did not attend. The Chicago Field Office SAC told the OIG that if
DHS invited a CAIR official to the Roundtable, he would not deny them entry at
the door. The SAC also stated that if CAIR officials came to the Chicago Field
Office, he was not required to report it to FBI Headquarters, just as he was not
required to report a meeting with CAIR on a civil rights matter. 5 He stated
such notification would be impractical given the realities the field office
encountered. He said that he viewed the various ECs from FBI Headquarters
regarding interactions with CAIR as "guidance" and not policy and that he
therefore was not required to contact or coordinate with Headquarters. We do
not believe that the ECs could have been viewed as anything other than
       s The field office did send an EC reporting the Roundtable event to the Director's Office
at FBI Headquarters after the event occurred, but it did not mention that a CAIR representative
had been invited to attend.

U.S. Department of Justice                                                                   3
Office of the Inspector General
Evaluation and Inspections Division
mandatory, particularly in light of the SAC's attendance a t - policy
meeting in November 2008 on this same subject. While the CAIR
representative ultimately did not attend the Roundtable, the failure to follow
the ECs in this instance could have led to an interaction that would have been
inconsistent with the FBI's policy.
       Philadelphia Field Office- On December 11, 2010, the Philadelphia Field
Office held a Community Relations Executive Seminar Training (CREST) event.
CREST is an FBI community outreach program created by OPA as a
subprogram of the FBI's Citizen's Academy. The policy specifically instructed
FBI field offices that CAIR could not participate in the FBI Citizen's Academy.
Nevertheless, based on guidance it received from OPA, the Philadelphia Field
Office allowed a local CAIR official to attend as an invited guest. A few days
later, CAIR-Philadelphia posted an article on its website describing its
participation in the training program, with a link to the FBI's website. The FBI
Philadelphia Field Office did not coordinate with the
~ the policy, and OPA did not consult with
- · As a result, OPA provided guidance that resulted in an
interaction with CAIR that was inconsistent with the FBI's policy.
       Philadelphia Field Office -Between August 2011 and June 2012,
Philadelphia Field Office Special Agents attended the Pennsylvania Human
Relations Commission Interagency Task Force on Community Activities and
Relations meetings on a monthly basis. CAIR personnel have also attended
these meetings. During our review, we learned that the Philadelphia Field
Office attended these task force meetings for approximately 7 years for liaison
purposes related to its civil rights program. The meetings were sponsored by a
state government agency and not by the FBI or CAIR; they were held in non-
FBI office space; the FBI did not have a role in organizing the program; and the
event was not otherwise structured in a way that would give the public
appearance of a liaison relationship between CAIR and the FBI. Therefore, we
found that the policy did not preclude FBI attendance at these meetings.

Conclusion
       In 2008, the FBI developed a policy intended to restrict FBI field offices'
non-investigative interactions with CAIR. However, in three of the five
incidents we reviewed, we concluded that the policy was not followed. Despite
recognizing the importance of the policy by issuing multiple ECs and holding a
mandatory meeting with field office leadership to ensure compliance, we found
that the FBI did not conduct effective oversight to ensure compliance with the
policy. Additionally, FBI field offices at times contacted OPA instead of the
required points of contact under the           and OPA did not consistently
coordinate with                                        when that happened. We
found that OPA, which has a different mission and focus than other divisions,

U.S. Department of Justice                                                      4
Office of the Inspector General
Evaluation and Inspections Division
provided guidance regarding interactions with CAIR that we found was
inconsistent with the policy. This resulted in public interactions with CAIR
that we found to be inconsistent with the goal of the FBI's policy.

Recommendations
     To help the FBI improve its implementation of the policy, the OIG has
made two recommendations in this report. They are:
   1. Ensure effective implementation of FBI policy relating to interactions
      with CAIR, including the coordination mandated by the policy and
      enforcement and oversight of compliance with the policy.
   2. Provide comprehensive education on the objectives and requirements of
      the current CAIR policy to Headquarters and field office personnel who
      are likely to be involved with the application of the policy.




                    •




U.S. Department of Justice                                                     5
Office of the Inspector General
Evaluation and Inspections Division
